Supreme Court, U.S.
FILED

FEB 0 4 2021
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CESAR GOMEZ
(Your Name)

— PETITIONER

vs.

BOBBY LUMPKIN, DIRECTOR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CESAR GOMEZ, TDCJ#01839985
(Your Name)

2663 PRISON RD 1
(Address)
LOVELADY, TEXAS

75851

(City, State, Zip Code)
N/A
(Phone Number)

El

QUESTION(S) PRESENTED
1) In adopting the 12th Court of Appeals opinion, who used the State's
’harm analysis'' standard, did the U . S . Dis t. Court apply the harmlesserror review in an "objectively unreasonable" manner?
2) Can Gomez indictment be Constitutionally amended allowing the crime
to be graded higher without i.the Grand Jury doing the broadening or
amending?
3) If erroneously admitted evidence was not 'helpful* but in fact
'harmful' and prejudiced Gomez, was his Constitutional rights to due
process and fair trial violated?
4) Was gomez' trial fundamentally unfair due to prosecutorial misconduct
during opening statement?

i.

LIST OF PARTIES

[53 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Gomez v. State of Texas,459 S.W.3d 651(Tex.App.-Tyler 2015,pet.ref 1d)
Judgement entered January 21,2015.
Gomez v. State of Texas, No.PD-0138-15(Tex.Crim.App.2015) Judgement
entered June 17,2015.
Gomez v. Texas,136 S.Ct.1201(2016)Judgement entered April 1,2019.
Ex parte Gomez, WR-87,143-01(Tex.Crim.App.2017)Judgement entered October
25,2017.
Gomez v. Lumpkin,2019 U.S.Dist.LEXIS 101644(E.D.Tyler Div.) Judgement
entered June 17,2019.
*Motion to A1terror Amend
Denied1, September 29,2019.
Gomez V. Lumpkin,No.19-40916 (5th Cir.2020) Judgement entered October 7,
2020

li.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

is

INDEX TO APPENDICES
APPENDIX A

Decision of U.S.Court of Appeals 5th Cir. Denying COA/

APPENDIX B Decision of U.S.Dist.Court (E.D.-Tyler Div.) Denying
motion to alter or amend
APPENDIX C Decision of U.S.Dist.Court (E.D.-Tyler Div.) Denying
Habeas Corpus §2254
APPENDIX D Report and Recommendation of U.S.Magistrate Judge (E.D.Tyler Div.)
APPENDIX E Decision of Texas Court of Criminal Appeals
APPENDIX F
APPENDIX G

Opinion of the 12th Court of Appeals, Tyler, Texas
Decision of the Supreme Court of the United States

in.

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Berger v. United States,295 U.S.78(1935).............
17
Brecht v. Abrahamson,507 U.S.619(1993)..................
10,11
Bryson v. Alabama,634 F.2d 862(5thCir.1981) ...
16
Calderon v. Coleman,525 U.S.141(1998) ..................
11
Chapman v. California,386 U.S.18(1967) ...............
11
Darden v. Wainwright,477 U.S.168(1986) ...............
17
Donnelly v. DeChristoforo,416 U.S.637(1974) ...
17
Ex parte Gomez, WR-87,143-01(Tex.Crim.App.2017)
5
Fry v. Pliler,551 U .S . 112(2007) ..............................
11 •
Glover v. United States,531 U . S . 198(2001) .........
16
Gomez v. Lumpkinr2019 US Dist.LEXIS 101644(E.D.Tyler-Texas)
5
Gomez v. Lumpkin, No.19-40916(5th Cir.2020) .................................
5
Gomez v. State,459 S.W.3d 651(Tex.App.-Tyler 2015,pet.ref'd)
5
Gomez v. Texas,136 S.Ct.1201(2016) ....................................................
5
Kotteakos v. United States,328 U . S.750(1946) ...............................
10,11
Lockyer v. Andrade,538 U.S.63(2003) ..................................................
10
O'neal v. McAninch,513 U.S .432(1995) ................................................
11
Rushen v. Spain,464 U.S.114(1983) ............................................................
10
Taylor v. State,332 S.W.3d 483(Tex.Crim.App.2011) ......................
9
United States v. Arlen,947 F.2d 139 (5th Cir.1991) ...................
13
Unitel'Nlat^® /vN.D'fi>un|f730 F.2d 221 (5thCir . 1984)........................
13
Wright v. State,28 S.W.3d 526(Tex.Crim.App.2000) ......................
13
STATUTES AND RULES
Texas Penal Code §21.02(’b) (1) , (b) (2)
Texas Penal Code §22.021(a)(B)(ii) .
28 U.S.C §1254

12,13
12,15

2

.................................

28 10. S . C. §2254(d) .....................................

10

-U.S.CONST.,AMEND.V ...................................
U.S.CONST.,AMEND.VI .................................
U.S.CONST.,AMEND.XIV ...............................

13.16
14.16

OTHER

IV.

14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
P] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[x] reported at No.19-40916 (SthCir.2020)
; or,

A

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[x] reported at 2019 IhS.Dist.LEXIS 101644
; or,

c

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix E
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ $ is unpublished.
The opinion of the 12 th Cour t of Appeals_________
court
appears at Appendix_____ to the petition and is
[^ reported at 459 S.W.3d 651 (Tyler.Texas 2015)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[x] For cases from federal courts:
The date onwhich the^United States Court of Appeals decided my case
was
[Xl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X| For cases from state courts:
The date on which the highest state court decided my case was 10/25/2017
A copy of that decision appears at Appendix E
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in
this case.
U.S.CONST.,AMEND.V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or^'
limb; nor shall be compelled in any criminal case to be a witness ag­
ainst himself, nor be deprived of life, liberty, or property without due
process of law; nor shal private property be taken for public use with­
out just compensation.
U.S.CONST.,AMEND. VI
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.
U.S.CONST.,AMEND. XIV
Section 1. All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life, i.
liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

3.

28 U.S.C. §2254(d)
(d) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be gran­
ted with respect to any claim that was adjudicated on the merits in
State court proceedings unless the adjudication of the claim-(1)resulted in a decision that was contrary to, or involved an un­
reasonable application of, clearly established Federal law, as deter­
mined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable deter­
mination of the facts in light of the evidence presented in the State
court proceeding.
Texas Penal Code §21.02 (b)(1) and (b)(2)
(b) A person commits an offense if:
(1) During a period that is 30 or more days in duration, the person
commits two or more acts of sexual abuse, regardless of whether the acts
of sexual abuse, are;-;comrfiitted against one or more victims; and
(2) at the time of the commission of each of the acts of sexual abuse,
the actor is 17 years of age or older and the victim is a child younger
than 14 years of age, regardless of whether the actor knows the age of
the vittim at the time of the offense.
Texas Penal Code §22.021(a)(B)(i%)
(a) A person commits an offense:
(B) regardless of whether the person knows the age of the child at
the time of the offense, intentionally or knowingly:
(ii) causes the penetration of the mouth of a child by the sexual
organ of the actor

4.

STATEMENT OF THE CASE
Cesar Gomez ("Gomez") was arrested on May 3,2012 and charged with
continuous sexual abuse of a child under 14. Gomez went to trial on
February 4,2013 and on February 6,2013 a jury of his peers found him
guilty as charged in the indictment and assessed life in prison without
the possibility of parole. Gomez was represented by trial counsel Donald
S. Davidson ("Davidson").
On January 21,2015 in Cause No.12-13-0050-CR (see 459 S.W.3d 651 (Tex.
App.-Tyler 2015,pet.ref 1d))the Court of Appeals for the Twelfth District
of Texas at Tyler ("12thC0A") 'affirmed' Gomez' conviction. Gomez then
filed a Petition for Discretionary Review ("PDR") on April 17,2015,
that the Texas Court of Criminal Appeals ("TCCA") 'refused' on June 17,
2015. Gomez v. State,No.PD-0138-15(Tex.Grim.App.2015) Gomez filed a writ/
of certiorari that was 'denied' in Gomez v. Texas,136 S.Ct.1201(2016).
On October 7,2016 Gomez filed a state application for writ of habeas
corpus that was in turn 'denied' without written order on October 25,2017..
Ex par te;,Gomez , WR-87,143-01 (Tex. Crim. App . 2017) . Gomez timely filed his
2254 on February 26,2018. Gomez' 2254 was 'dismissed' with prejudice on
June 17,2019. 2019 U.S. Dist. LEXIS 101644 (U.S. District Court, Eastern
District,Tyler Division). Gomez timely filed a motion to alter judgment
on July 11,2019 that was 'denied' on September 29,2019. A Notice of
Appeal was filed on time along with a motion to Proceed In Forma Pauperis
on October 28,2019. Gomez' motion to proceed In Forma Pauperis was
'denied' by the U.S.Dist.Court("USDC"). On January 27,2020 Gomez filed
his Certificate of Appealability ("C0A") in the 5th Circuit, No.1940916. The 5th Circuit. The C0A.,was ultimately 'denied', on Octoberr^O?-,
2020. Gomez now files this Writ of Certiorari.
Gomez was indicted for the offense of continuous sexual assault of
child younger than 14 years, a first-degree felony that is punishable by
confinement in Texas Department of Criminal Justice ("TDCJ-CID") from
25 to 99 years or life, with no eligibility for parole. Texas Penal
Code ("TPC") §§12.32,21.02.
Complainant ("FG") first reported the alleged offense to.a school
nurse on March 5,2012. According to the indictment, which was filed on
April 19,2012, Gomez committed the offense during a period that was 30
5.

or more days of duration from on or about August 15,2017 through November
21, 2011. Complainant, who was born on November 22,1997 turned 14 years
old on November 22,2011.
Several months before trial, the State filed its Motion to Amend
and Interlineate, asking the Court to allow amendment of the indictment
so that the indictment would allege the date of offense from September
1,2007 through November 21,2011. The motion was 'granted on February 1,
2013 without objection.
During a February 4,2013 pre-trial hearing, the State urged its theory
of admissibility for evidence concerning sexual conduct that pre-dated
September 1,2007 and post-dated November 21,2011.With respect to conduct
before September 1,2007, the State would offer complainant's testimony
about events during her second grade year, which began in the fall of
2006, including her testimony that Gomez touched her private part with
his private part and put his private part inside complainant's private
part.With respect to conduct after November 21,2011,the State would offer
complainant's testimony that Gomez would "put [his] private part in your
private part" from the second grade (2006) "until March 1st,2012."
The jury charge instructed the jury that Defendant was charged with
Continuous Sexual Assault from Septemeberrl,2007 through November 21,
2011. The charge explained that the offense could only be committed
against a child under age 14. The charge further instructed that the membe'rs of the jury were not required to agree unanimously "on the exact
date" when the predicate offenses were committed. In the application para­
graph, the trial court instructed the jury to consider conduct "from on
or about September 1,2007 through November 21,2011." The charge states
in relevant (CR 85-86):
"You are instructed that the State is not bound by the specific date
which the offense,if any, is alleged in the indictment to have been
committed, but that a conviction may be had upon proof that the off­
ense,if any, was committed at any time prior to the filing of the in­
dictment which is within the period of limitations. There is no limi­
tation period to the offense of continuous sexual abuse of a child."

2 Clerk's Record will be "CR" followed by page number (CR 85).
Reporter's Record will be reflected by volume-RR-page number- line
reference i.g.,(4RR27,1-5). Exhibits will berrefered to as "EX"
followed by the exhibit letter(s).i.g.,EX"A".

6.

The State explained to the juyy (13RR120) that "when you gettto
September the 1st of 2007, that's when the statute was enacted," and the
State acknowledged that complainant was only under 14 years old until
November 21,2011.Still, the State argued in part (13RR119,19-22^:
The evidence shows that he began praying on her innocence in 2006,
okay? It never ended. It never ended until March of 2012. She told-she gave her outcry on March the 3th of 2012.(13RR120,4-6)(MR.PARRISH)
he committed the offense of aggravated sexual assault of a child from
2006 to 2012 hundreds and hundreds and hundreds of times on her.(13RR
121,4-8) So you know from her testimony that he's been preying on
her since 2006 twice a week, twice a week from 2006, as a littlebitty second grader, as a little-bitty second grader.2007, he's still
at it.(13RR121,18-19)So he was sexually penetrating her with his pe­
nis with his fingers, from 2006 to 2012. Now,why stop at November
the 21st 2011?
Pursuant to the face of the verdict form, the jury found Gomez "guilty
of continuous sexual assault of child, as charged in the indictment."
The original indictment alleged that Gomez committed the offense beginn­
ing on August 15,2007.
The verdict form did not reference the allegation that the offense
did not begin until September 1,2007. While the indictment as ordered am­
ended or interlineated may have been read to the jury, Gomez' review of
the Clerk's record does not indicate that any amended or physicallyinterlineated indictment was filed.
According to the written judgement, thesCdurttconstrued the jury's
verdict as indicating the "Date of Offense" of "8/15/07 . "(CR102 ) . Thus,
considering only the face of the written judgement,thesCourt concluded
that the jury found that the offense transpireddon or about August 15,
2007.
Next,,the State admitted photographs during punishment showing FG's
mother/Gomez' wife performing oral sex for Petitioner. The State did
not request for non-pornographic photographs to be taken. The porno­
graphy had no relevance because it was not 'helpful' to the jury in its
normative function and was unduly prejudicial. Its use appeared to be
punitive.
During the sentencing phase Parrish offered into evidence a photo of
Gomez’ wife performing fellatios on him. Parrish tells the jury "and
that's what the little girl had to look at for six years."(12th C0A Op
@ 2& 3).The State moved to enter Exhibits 84 & 85. At the bench on re­
cord the following pertinent testimony is had (13RR164).defense counsel
7.

clearly makes an objection:
MR.DAVIDSON: Judge, I'm going to object. I don't know that they're
relevant and I think they're more prejudicial than probative. THE
COURT: Okay. Let me see. MR.PARRISH: They're his penis, and that's
what that little girl had to look at for six years. THE COURT: Is that
his wife? MR;PARRISH: Yes. And that's what that little girl had to
look at-- THE COURT: What? MR.PARRISH: That's what that little girl
had to look at for six years. THE COURT: Okay. What's your objection?
You've got relevancy. Anything else? MR.DAVIDSON: Prejudice. That's
all. Any you know, quite frankly, I mean, I'm going to call her as a
witness. THE COURT: Going to call who as a witness? MR.DAVIDSON:
The wife.
These pictures were admitted to inflame the minds of the jury, they
were not helpful nor relevant. The photographs depicted lawful acts. The
use of State's Exhibits 84 & 85 produced a "substantial and injurious
effect or influence" on the jiury in determining the verdict.
Gomez was also prejudiced by the prosecutor's misconduct during the
State's opening statement and misrepresenting to the jury that Gomez had
domehow 'encrypted' his security systems hard drive, to hide something
and also failing to disclose material evidence favorable to one of his
defenses. Here is what assistant district attorney Parrish ("Parrish")
tells the jury:
(12RR39,8-9): This is my opportunity to talk to you about what the
evidence is going to show in this case.(12RR49,2-7) The DVR equip­
ment was collected, and I'll tell you right now that the Tyler Police
Department did everything they could to obtain an^t typeoof record­
able information that was on this equipment. Nobody can do it. It
was encrypted and nobody could pull anything off of it. But it was
there for some reason.
This opening statement was misleading and false, speculative and conclusoryy There was no evidence of the hard drive being 'encrypted,' and
without that, the argument was improper.

8.

REASONS FOR GRANTING THE PETITION
Q: In adopting the 12th COA opinion, who used the State's 'harm
analysis' standard*. did the USDC apply the harmless-error review in an
"obj ectively unreasonable" manner?
United States Magistrate Judge Honorable Judge John D. Love ("Hon.
Love") states in his Report and Recommendation (Rep.Rec.)(Rep.Rec@9):
"A liberal reading of his petition shows that Gomez alleges that the
charge allowed the jury to convict him based on offenses committed
outside the time frame permitted by the statute. Gomez raised this
claim on direct appeal, and the appellate court issued the last rea­
soned opinion on this issue, which this Court reviews to determine
whether the denial of this claim was contrary to federal law or an
unreasonable application thereof. See Yist v. Nunnemaker,501 U.S.797,
803(1991)
The 12th COA "last reasoned opinion" stated "This is an erroneous
instruction..."(pg.7) the instruction:
"You are instructed that the State is not bound by the specific date
which the offense, if any, is alleged in the indictment to have been
committed, but that a conviction may be had upon proof that the offense,
if any, was committed at any time prior to the filing of the indict­
ment which is within the period of limitations. There is no limita­
tion period to the offense of continuous sexual abuse of a child."
The 12th COA went on to state (pg.7):
"Because Appellant did not object to this instruction, we apple the
"egregious harm" standard wherein reversal is required only if the
charge error was "so egregious and created such harm that the defen­
dant has not had a fair and impartial trial." Barrious v. State,
283 S.W.3d 348,350(Tex.Crim.App.2009);Almanza,686S.W.2d at 171."
Here Gomez argues that an objection was not required and the State's
harm analysis was unreasonably applied. Gomez will briefly explain.
When jury charge error involves failure to submit an instruction con­
cerning the law applicable to the case, a defendant is not required to
make an objection or request to have the instruction included in the
jury charge. TeX.Code Crim.Proc.("TCCP")art.36.14; Taylor v. State,332
S.W.3d 483,493(Tex.Crim.App.2011).
Gomez persistently raised concerns, objected on relevancy and undue
prejudice grounds before and during trial and obtained a running obj,eci=tion and oral and written instructions concerning the limitations on l
the use of testimonyyabout the offense conduct outside of the timeframe alleged in the amended indictment.. (CR85,11RR141-47,149,153-154 ,
157-58,160-161,164-67;12RR 17-18,79-82,90-97;13RR 95-96,104,115).
9.

Gomez also referred to his Motion to ^uash and Exceptions to Substance
of the Indictment during hearings outside of the presence of the jury.
(CRS2;2RR5-6). Gomez* motion asserted that,"under continuous sexual ab­
use of a child, you have to be under the age of 14-."(2RR 5;11RR 168172;CRS2). Gomez referenced his motion to quash in connection with no­
tice and the substantive issues about the use of irrelevant and pre­
judicial evidence about conduct that was outside of the timeframe cor­
responding toithe offense conduct.(11RR 155-56,159-176).
Clearly Gomez objected specifically and covered all available re­
medies. Nevertheless, the 12th COA opined there was no "egregious harm"
and there was no objection. HOn.Love adopted this finding and specifi­
cally stated "...,which this Court reviews to determine whether the de­
nial of this claim was contrary to federal law or an unreasonable
application thereof. See Yist v. Nunnemaker,501 U.S.797,803(1991)."
Gomez will show this is contrary to federal law and that Hon.Love app­
lied the incorrect standard in an objectively unreasonable manner.
When it comes to the order in which a federal court addresses the
merits and the section 2254 (d) determination, this Supreme Court has
made clear that "AEDPA does not require a federal habeas court to adopt
anycone methodology." Lockyer v. Andrade,538 U.S.63,71(2003). The
Court's opinion applying AEDPA's appropriate sequence of decision­
making is to analyze the merits and thereafter address the question of
whether relief is warranted under section 2254 (d). Thermerits analysis
apparently includes application of thhess.tandard developed in Brecht v.
Abrahamson,507 UVS.619(1993) for gauging "harmless error" in federal
habeas corpus proceedings.
Supreme Court law requires the USDC to use the Brecht standard not
the state's 'harm analysis' cited in Barrious v State,283 S.W.3d 348,
350(Tex.Crim.App.2009). Clearly Hon.Love did not reasonably apply the
correct standard let alone in an objectively reasonable manner. The
idea that the harmlessness of constitutional error is a federal ques­
tion was enlarged by the Court when it denominated harmlessness a
"decision..of federal law." Rushen v. Spain,464 U.S.114,120(1983).
An error may be deemed harmless, if the reviewing court finds that
"the error did not influence the jury, or had but very slight effect"
(Kotteakos v. United State,328U . S . 7 50(1946)) and that "the judgement
was not substantially swayed by the error."Id.at 765. Or, to use the

10.

phrase the Brecht Court most frequently extracted from Kotteakos,
"the standard for determining whether habeas relief must be granted is
whether... the error 'had substantial and injurious effect or influe­
nce in determining the jury's verdict." Brecht,507 U.S.@623. When "the
matter is so evenly balanced that [the federal judge] feels himself in
virtual equipose as to the harmessness of the error," the court should
find that the error is not harmless and rule in favor of the petitioner.
O'neal v. McAninch,513 U.S.432,435(1995).
To justify the newly drawn distinction between the harmless error
rule that applies on direct appeal and the different one that applies in
habeas corpus the Brecht majority pointed to "the State's interest in
the finality of convictions that have survived direct review within the
State court system" and concerns of "comity and federalism."Brecht,507
U.S .@635.Accord Calderon v. Coleman,525 U.S.141,145-47(1998)(per curiam).
Because t^e Brecht majority apparently premised these justifications
on an assumption that a finding of harmlessness by the state courts
under the more stringent Chapman rule always will preced habeas corpus
review of the harmlessness question under the less stringent Brecht
rule, the Brecht opinion appeared to leave open the possibility that
Brecht would be restricted to cases in which the State courts in fact
had previously applied the Chapman rule. Until the clarification of the
rule in Fry v. Pliler,551 U.S.112(2007), the circuit courts were div­
ided on the question of whether to apply Brecht or Chapman to assess
harmless error in a federal habeas corpus proceeding in which the State
courts had not applied Chapman in the first instance.3
U.S. Magistrate judge Hon.Love adopted the Barrious standard agreeing
with the 12th COA at Tyler Texas. Neither Courts used the federal stan­
dard in Chapman or Brecht. This was done clearly in an objectively un­
reasonable manner. Because the Fifth Circuit agreed with the USDC of
the Eastern District of Texas who agreed with the St&te appellate 12th
Courtrof Appeals, all in which failed to apply Chapman nor Brecht this
Honorable Court must grant certiorari.
3 this is my emphasis throughout writ.ig.g., my emphasis^

11.

Can Gomez indictment be Constitutionally amended allowing the
crime to be graded higher without the Grand Jury doing the broadening
or amending?

Q:

Gomez indictment alleged that a commencement date for continuous
sexual abuse that was prior to the effective date of the continuous
statute. The original indictment was filed on April 19,2012 alleged that
the offense commenced on August 15,2007.(CR 1). On November 2,2012 the
State filed its motion to interlineate the indictment to change the beg­
inning date of the alleged offense to September 1,2007.(CR 42;10RR 1,1011). During pretrial on February 1,2013, which was the Eriday before
trial commenced on Monday February 4,2013, the trial court only verbally3 granted the State's motion,supra. The trial court also signed an
Order on Febrary 1,2013 stating that the State's motion was granted,
but the Order did not specifyythe language that would be changed.(CR 46,
48). On Saturday,February 2,2013 the trial court interlineated the in­
dictment to change the beginning date of the offense to Septemberrl,2007
in fulfillment of it's February 1,2013 statement that it would do so.
(CRS2;10RR11). The jury found on February 6,2013 that Gomez was "guilty
of continuous sexual abuse of acohild, as charged in the indictment. 3 II
(CR 91). The verdict did not3 refer to the amended indictment. (CR 91;
CRS2). In the February 6,2013 judgement, the trial court indicated
that the offense began on August 15,2Q073 , which was the date alleged
in the original indictment.(CR 1,102).
In Gomez case, the State motioned for an amendment to change the
beginning date of offense from August 15,2007 to September 1,2007, which
was designed to revise the charge from3 aggravated sexual assault to
coninuous sexual abuse. TPC§§ 21.02(b)(1),21.02(b)(2),22.0211(a)(1)(B)
(i)(iii);see Act of May 18,2007,80th Leg.,R.S.,ch.593,§ § 1.17,4.01(a),
2007 Tex.Gen.Laws 1120,1127,1148. The amendment was unconstitutional as
a right to a fair trial and due process were violated by 1) there was no
interlineation by the state of the original indictment,2) the order
granting the motion did not include any language from the motion and 3)
there was no other document containing the pertinent language that
qualifies as incorporated into the record. The record does not indicate
that the parties were present at the trial judge's Saturday interline­
ation, nor was the interlineated document re-filed with the District

12.

Clerk before trial commenced. This is mandatory under TCCP arts. 28.
10,28.11; Wright v. State,28S.W.3d 526,531 n.4(Tex.Crim.App.2000) and
by not fallowing the rules it affected Gomez* substantial rights
making it a violation of Constitutional magnitude.
Hon.Love states in his Rep.Rec.@12 in pertinent part:
"As the Respondnet explains, however,claims regarding the suffi­
ciency of a state indictment are not matters for federal habeas
review unless it can be shown that the defects within the indict­
ment deprives the State court of jurisdiction. See McKay v. Collins,
12 F.3d 66,68(5th Cir.1994)("The sufficiency of a state indictment
is not a matter of federal habeas relief unless it can be shown that
the indictment is so defective that it deprives the state court of
jurisdiction.")."
This is where the same circuit'state in U.S. v. Arlen,947 F.2d
139(5th Cir.1991):
"The Fifth Amendment guarantees that a criminal defendant will be
tried only on charges alleged in a grand jury indictment";"The in­
dictment cannot3 be "broadened or altered" except by the grand
j ury."
The indictment was in fact 'broadened or altered,

the relevant
information is reflected from the indictment, the failed amendment and
the jury charge. The application paragraph and verdictt applied the
incorrect offense, continuous abuse, which carried a 25-year minimum
sentence, with no eligibility

for parole; in comparison, Gomez

would be subject to a range of only five to 99 years or life, with
parole after 30 years, assuming a life sentence, for the offense that
was actually alleged in the indictment, aggravated sexual assault.
TCP §§12.32,21.02(b)(1).
Hon.Love concludes (pg.13):
"Here, Gomez has not shown that the state court's adjudications of
his invalid-indictment claims were unreasonable and, importantly,
his claim is not cognizable on federal habeas review."
Gomez has shown the indictment was 'broadened or altered* increas­
ing the charge and sentence and this is a violation of his Fifth Amend­
ment rights to due process and was in fact ' unreasonable.’*'
This Honorable Court and again the Fifth Circuit states in United
States v. Young,730 F.2d 221(1984);
"It is a long-established principle of our criminal justice sys­
tem that, after an indictment has been returned its charges may
not be broadened through amendment except by the grand -jury3 itse self." See Ex pgrte Bain,(1887)121 U.S.l, 7S.Ct.781,30 L.Ed.849.
In Stirone v. U.S.,(I960),361 -U.S.212,80 S.Ct.270,4 L.Ed.2d 252,

13.

a leading case, "the Supreme Court recognized that a trial court's
amendment of the indictment need not be explicit to constitute re­
versible error, but that it may be implicit or constructive."
Gomez claims his indictment was amended after the grand jury in­
dicted him, based on a time frame outside the statute, making it void and
reversible. For the above reasons, Gomez is entitled to certiorari.
Q.: If erroneously admitted evidence was not 'helpful' but in fact
^harmful' and prejudiced Gomez, was his Constitutional rights to due
process and fair trial violated?
At the punishment phase of the trial the State introduced State's
Exhibits 84 and 85. Gomez claims the trial court erred duringtthe punish­
ment phase by rejecting relevancy and prejudice objections concerning
photographs where ggmez* pendis was shown with his wife performing oral
sex. Gomez was indicted and convid tad'-as;-, charged tin the indictment in
pertinent (CR 1):
"...,CESAR GOMEZ did then and there, during a period that was 30 or
more days in duration, to-wit: from on or about August 15,2007
through November 21,2011, when the defendant was 17 years of age or
older, commit two or more actswof sexual abuse against a child
younger than 14 years of age, namely, intentionally or knowingly
cause the contact and penetration of the female sexual organ..."
The State told the jury that Gomez used his "filthy penis" to tor­
ture the complainant from 2006 to 2012.(12RR 39,42,43,47,48,52; 13RR 116,
119,120,122,125,128,136,137,166,167,177,178,179,210,214,215). The State
used the words "filth"oor "filthy" 21 times before the end of the guilt/
innocence.
In State's Exhibit 84, Gomez' erect penis is shown protruding from
his pants, with some of his pubic hair shown, and the right side of the
end of his penis brushing the face of his wife, Miriam Gomez, specific­
ally the right side of her upper lip.((State's Ex.84;&13RR 175-79). The
right side of Miriam's mouth is slightly open in State's Exhibit 84.
State's Exhibit 85 is a closer depiction of Miriam's head; her face
takes up much of the picture, with Gomez' erect penis appearing less pr­
ominently then it does in State's Exhibit 84, because Miriam's hands are
holding his penis.(13RR175-79). Miriam's mouth is open in State's Ex­
hibit 85, with her tongue extended in a manner where she is touching
or appears to be touching the underneath side of Gomez' penis with
her tongue.
14.

G

Gomez incorporates the Statement of the Case regarding the excerpts

from trial to this point. The trial court stated "[yjour relevancy ob­
jection is overruled. Prejudicial objections overruled."(13RR165). The
trial court further state that it considered all the testimony in the
case, specifically the testimony that complainant was "forced to perform
oral sex on the penis of the defendant, and that's what these photo­
graphs reflect the defendant's wife in that position."(12RR 113-114,152).
The trial court also stated that it understood that "this is a picture
of a penis that the little girl had to perform oral sex on."(13RR166).
Again, Gomez was not convicted of: causes the penetration of the
mouth of a child by the sexual organ of the actor,(TCP§22.021(a)(B)
(ii) ) , nor Invasive Visual Recording "voyeurism"(TCP§21.15). The trial
court decided to conditionally admit the photographs through Detective
Robert's testimony. (13RR167). Shelton renewed his objection when the
State said they would use Anselma to identify Gomez' penis.(13RR177).
The trial court at the bench responded that the photographs would be
admitted if the State could "prove up" the photograph since "the little
victim testified he was forcing her to perform oral sex on him."(l3RR
177). In referencing Gomez' penis Anselma agreed she know "whose that
is."(13RR178). When the state asked "[wjhose is that," she replied
"[h]is," meaning Gesar Gomez.(13RR178). The trial court stated that
State's Exhibits 84 and 85 were admitted for all purposes, overruling
Shelton's objection.(13RR179).
The 12th COA states in their opinion (pg 3 & 4):
Relevance
At trial the state asserted that the photographs were relevant because
the photographs were of Appellant's penis, "and that's what that
little girlohad to look at for six years.""And while the State's
assertion concerning Appellant's abuse of F.G. is uncontested, WE
DO NOT AGREE3, that it was helpful to the jury to view pictures of
AppAppellant's penis so that it could see precisely what F.G.saw."
Hon.Love states in pertinent (Rep.Rec.@14):
"The Fifth Circuit has repeatedly held that claims of trial court
error may justify federal habeas relief if the error "is of such
magnitude as to constitute a denial of fundamental fairness under the
due process clause." See Krajcovic v. Director,2017WL3974251 at *6
(E.D.Tex.June 30,2017)(quoting Skillern v. Estelle,720 F.2d 839,852
(5th Cir.1983)); see also Brecht v. Abrahamson,507 U.S.619,637-38
(1993)(To be actionable in federal court, the trial court error must
have "had substantial and injurious effect or influence in deter­
mining the jury's verdict."). In other words, Gomez must show that
he was prejudiced by the purported trial court error."
15.

Prejudice is easily shown by this very Court's statement in Glover v.
United States,531 U.S.198,203(2001)"Any amount of additional time in
prison constitutes prejudice." The 12th COA opined "we do not agree that
it was helpful..."(pg.3). If the evidence wasn't helpful it was harmful
and this is the prejudice proven. The photo was highly irrelvant to the
manner charged in the indictment.
This was easily error of Constitutional magnitude, since there are
Constitutional implications. It was for the jury, in its role as part of
the judicial branch, to assess punishment, and the error affected Gomez'
right to a fair trial. Thus, being "of such magnitude as to constitute a
denial of fundamental fairness under the due process clause." Krajcovic.
The error in admitting the color photograph in State's Exhibit 84 and 85
required no emphasis for it to remain the forefgont of the jurors minds
during deliberations. Under these circumstances, the jury probably placed
substantial weight on both Exhibits 84 and 85 in assessing his sentence
of life without parole, rather than a lower number. The Fifth Circuit
in Bryson v. Alabama,634 F.2d 862 (1981) states, "Erroneous admission of
prejudicial evidence can3 justify habeas relief." Gomez Fifth and Sixth
Constitutional rights were violated by/the court's erroneous admission of
these non-helpful photos that increased Gomez sentence substantially.
Gomez is entitled to certiorari.
Q.: Was Gomez

trial fundamentally unfair due to prosecutorial misconduct
during opening statement?

"This claim is without merit."The purpose of an opening statement is
to tell the jury what the case is about and to outline the proof."
United States v. Breedlove,576 F.2d 57,60(5th Cir.j978). A prosecutor's
articulation of what he or she believes the evidence will demonstrate
or has demonstrated is not error. See Ortega v. McCotter,808 F.2d 406,
410(5th Cir.1987). Here,a review oT the prosecutor's opening statement
reveals that he - at the very beginning of his opening statement specifically explained to the jury that was his "opportunity to talk to
you about what the evidence is going to show3 in this case."(Rep.Rec@18).
Gomez was prejudiced by the prosecutor's misconduct during the state's
opening statement and misrepresenting to the jury that Gomez had somehow
'encrypted' his security systems hard drive to hide something3.
What the evidence is going to show3 is a difinitive statement; It is
not a 'probability,' it's an assuring fact told to layman of the law so
easily swayed by legal jargon and terminology. Parrish tells the jury
(12RR 49,2-7) :
16.

"The DVR equipment was collected, and I'll tell you right now that i
the Tyler Police Department did everything they could to obtain any
type of recordable information that was on this equipment. Nobody
can do it. It was encrypted and nobody could pull anything off of it.
But it was there for some reason.
This is how Parrish opened up to the jury, with false and misleading
statements that were purely speculative and conclusory. Parrish tell the
jury the evidence will show3 that the security system's hard drive was
'encrypted,' specifically notuthe fault of the civil sevants working for
the State. This Court says in Berger v. United States,295 U.S.78,(1935)
in pertinent:
"The prosecuting attorney's argument to the jury was undignified and
intemperate, containing improper insuations and assertions calculated
to mislead the jury."
Parrish wanted the jury to believe it was Gomez who 'encrypted* the
hard drive, trying to hide something. Parrish wanted the jury to per­
ceive Gomez as a computer guru who had above average computer skills
that allowed him to watch the alleged recorded assaults and be able to
'encrypt,' at any instance.
Parrish never once produced an ounce of evidence to prove beyond a
reasonable doubt that the system was 'encrypted.' Parrish opened this
way to mislead the jury, taint their minds, inflame their emotions.
Parrish had this calculated perfectly, to find Gomez guilty before trial
even started.
This Court says the standard for relief for prosecutorial misconduct
is "the narrow one of due process, and not the broad exercise of super­
visory power." Darden v. Wainwright,477 U.S . 168,181(1986). "To prevail
on such claims the petitioner must show that the prosecutores actions
were so egregious as to tender the trial fundamentally unfair." See
Donnelly v. DeChristoforo,416 U.S.637,643(1974).
Did the jury now believe Gomez could remotely 'encrypts his own
security system, that he uses for sexual gratification? "His or her
actions must have so infested the trial with unfairness as to make the
resulting conviction a denial of due' process." Darden,477 @181. It is
not enough that his or her actions "were undesierable or even univer­
sally condemed." Parrish's unproven, conclusory statements rendered
Gomez' trial fundamentally unfair. Gomez is entitled to relief due to
the prosecutorial misconduct committed during opening statements to the
jury.
17.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Cescvc

Date: 0 1

)

" 20 2, \

18.

